                     Closeout of M91020011

On February 25, 1991, OIG




                                                    -
                    in conn
             , Directorate of




in the proposa


readily and voluntarily-admitted that he i s not a co-author of
these papers. At the request of ,               on
the subject and the Co-PI of the proposal sent letters to OIG
explaining the circumstances that led to the two errors in the
reference in the proposal. In his letter, the subject wrote:
It [Tlhis mishap is a result of typographical errors in developing
the manuscript.      We take full responsibility for the final
manuscript and our oversight in picking up this critical error
during proof reading .... We are sending a letter to the program
director alerting him to this error. We will ask him to correct
all remaining copies of this proposal at [NSF]  .  We would also
be willing to write letters to the co-authors on the two
references offering an apology for this oversight if you wishv.
The subject's    Co-PI wrote: "1 assure you that there was no
attempt to misrepresent the work mentioned in references 14
and 15; this was only a typographical error when entering the
referencesN.
The subject and his Co-PI are clearly aware of their errors in
this matter. Since their letters present satisfactory
explanation of the situation indicating no misconduct, the case
can now be closed.




                                             22 May 1991

CC: Inspector General (IG)
    Assistant IG fcr Oversight
